E-Mail Address: 775 H Street, N.E.
Est 4 briefs@wilsonepes.com Washington, D.C. 20002

WO a

Web Site: Tel (202) 789-0096
we www.wilsonepes.com Fax (202) 842-4896
No. 19-1306

UNITED PARCEL SERVICE, INC.,

Petitioner,
v.

STATE OF NEW YORK AND CITY OF NEW YORK,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on August 3, 2020, the following counsel have expressly waived service
of paper copies by mail and have requested electronic service and that true and correct electronic
copies of the BRIEF IN OPPOSITION were served on the following counsel at the e-mail addresses
indicated:

MARK ANDREW PERRY RICHARD PAUL DEARING
GIBSON DUNN & CRUTCHER, LLP NEw YorK City LAW DEPARTMENT
1050 Connecticut Avenue, NW 100 Church Street
Washington, DC 20036-5306 New York, NY 10007
(202) 887-3667 (212) 356-2500
mperry@gibsondunn.com rdearing@law.nyc.gov
Counsel for Petitioner Counsel for Respondent

United Parel Service, Inc. The City of New York

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 3rd day of August 2020.

 
 
    

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
